                   The Wage and Investment Division’s
                    Automated Underreporter Program
                  Effectively Monitored Performance Data
                      to Meet Annual Program Goals

                                   October 2004

                       Reference Number: 2005-40-008




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  October 27, 2004


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                        Gordon C. Milbourn III
                                   Acting Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - The Wage and Investment Division’s
                                   Automated Underreporter Program Effectively Monitored
                                   Performance Data to Meet Annual Program Goals
                                   (Audit # 200440024)


      This report presents the results of our review of the Wage and Investment (W&I)
      Division’s Automated Underreporter (AUR) Program. The overall objective of this
      review was to determine whether the Program is effectively managed to help ensure it
      meets its intended goals, including the evaluation of Program performance through
      adequate data collection, evaluation of Program deficiencies, and Program
      management accountability.
      To assess the AUR Program, we used the Program Assessment Rating Tool (PART)
      criteria created by the Office of Management and Budget to rate Federal Government
      programs. The PART is a systematic method of assessing the performance of program
      activities across the Federal Government and is a diagnostic tool with the main
      objective to improve agency program performance and link performance to budget
      decisions.
      The AUR Program Manager reported that the AUR analysts monitored the monthly
      workload results of each campus1 to ensure ample progress was being made toward
      achieving established performance goals. Our review of the various national- and
      campus-level management information reports confirmed that the AUR Program was on
      schedule to meet its Fiscal Year 2004 goals. W&I Division management held the AUR
      Program Manager and the associated AUR campus managers accountable for meeting
      the AUR Program’s annual goals by including the goals in their annual performance

      1
       The data processing arm of the Internal Revenue Service. The campuses process paper and electronic submissions,
      correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                           2

standards. To maintain a high level of performance, management in the Reporting
Compliance function began to perform operational reviews at the W&I Division
campuses to help manage and enhance the AUR Program.
We made no recommendations in this report. However, key Internal Revenue Service
management officials reviewed it prior to issuance and provided their concurrence with
its contents via email.
Copies of this report are also being sent to the IRS managers affected by the report
results. Please contact me at (202) 622-6510 if you have questions or Michael R.
Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
           The Wage and Investment Division’s Automated Underreporter Program
           Effectively Monitored Performance Data to Meet Annual Program Goals




                                             Table of Contents


Background ............................................................................................... Page 1
The Automated Underreporter Program Manager Effectively
Used Data to Monitor Annual Performance Goals .................................... Page 3
The Automated Underreporter Program Manager and the
Automated Underreporter Campus Managers Were Held Accountable
for Program Performance Results ............................................................. Page 4
Reporting Compliance Function Management Has Initiated
Operational Reviews to Evaluate Management Effectiveness .................. Page 5
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 7
Appendix II – Major Contributors to This Report ....................................... Page 9
Appendix III – Report Distribution List ....................................................... Page 10
        The Wage and Investment Division’s Automated Underreporter Program
        Effectively Monitored Performance Data to Meet Annual Program Goals

                               The Internal Revenue Service’s (IRS) Information
Background
                               Reporting Program is the cornerstone of voluntary
                               compliance and affects compliance and revenue across
                               every taxpayer and market segment. The Information
                               Reporting Program helps ensure a high level of compliance
                               by requiring third parties such as employers, banks,
                               brokerage firms, and others to file information returns
                               reporting taxpayer income and certain deductions to the
                               IRS.1 In Fiscal Year (FY) 2003, the IRS received over
                               130 million individual income tax returns and over
                               1.3 billion information returns.2
                               The Automated Underreporter (AUR) Program is part of
                               the Information Reporting Program. The mission of the
                               AUR Program is to reduce taxpayer burden and increase
                               voluntary taxpayer compliance. The AUR Program has
                               evolved as a compliance initiative using the third-party
                               information returns to identify income and deductions that
                               were not reported on tax returns.
                               The AUR Program is administered by the Compliance
                               functions in the Wage and Investment (W&I) and
                               Small Business/Self-Employed (SB/SE) Divisions operating
                               through six IRS campuses.3 The Reporting Compliance
                               function in the W&I Division administers the AUR Program
                               through the three W&I Division campuses located in
                               Atlanta, Georgia; Austin, Texas; and Fresno, California.
                               The annual AUR process begins when the Martinsburg
                               Computing Center creates an inventory list of potential
                               underreporter cases by matching taxpayer return data
                               against the data in the third-party information return
                               database, identifying taxpayers with discrepancies. The first

                               1
                                 Information returns are submitted by third parties to report certain
                               business transactions to the IRS (e.g., the amount of payments made to
                               and from individuals such as wages, interest, dividends, and sales of
                               certain assets). The information is reported to the IRS on various forms
                               such as the Form 1099 series (for various incomes such as
                               Miscellaneous, Interest, Dividend, etc.) and the Wage and Tax
                               Statement (Form W-2).
                               2
                                 The IRS reported this information in its IRS 2003 Data Book.
                               3
                                 The campuses are the data processing arms of the IRS. The campuses
                               process paper and electronic submissions, correct errors, and forward
                               data to the Computing Centers for analysis and posting to taxpayer
                               accounts.
                                                                                                Page 1
The Wage and Investment Division’s Automated Underreporter Program
Effectively Monitored Performance Data to Meet Annual Program Goals

                       match occurs between July and September of each year; a
                       second match, picking up additional filers, occurs during
                       January and February of each year. The 2 matches result in
                       a total of approximately 15 million potential underreporter
                       cases. Due to resource capacity constraints, the W&I and
                       SB/SE Division AUR Programs can work only about
                       3 million of these cases annually, with 55 percent of the
                       cases worked in the W&I Division and the balance in the
                       SB/SE Division. During FY 2003, the W&I Division
                       AUR Program closed 1.52 million cases and assessed
                       $1.42 billion in unpaid taxes.
                       This review was the second part of our strategy to determine
                       whether the W&I Division was reducing the risk of taxpayer
                       noncompliance as a result of work performed through the
                       AUR Program. This strategy focused on using the Program
                       Assessment Rating Tool (PART) created by the Office of
                       Management and Budget (OMB) to rate Federal
                       Government programs. The PART is a systematic method
                       of assessing program performance across the Federal
                       Government and is a diagnostic tool with the main objective
                       to improve performance in agency programs and link
                       performance to budget decisions.
                       Our review of the AUR Program focused on assessing
                       Program management using Section III of the PART.
                       Section III focuses on whether a program is effectively
                       managed to meet annual program performance goals. Key
                       areas include the evaluation of program improvements,
                       performance data collection, and program management
                       accountability.
                       This review was performed in the AUR Program Office at
                       the W&I Division Headquarters in Atlanta, Georgia, during
                       the period April through September 2004. The audit was
                       conducted in accordance with Government Auditing
                       Standards. Detailed information on our audit objective,
                       scope, and methodology is presented in Appendix I. Major
                       contributors to the report are listed in Appendix II.




                                                                            Page 2
         The Wage and Investment Division’s Automated Underreporter Program
         Effectively Monitored Performance Data to Meet Annual Program Goals

                                The AUR Program Manager reported that, through the
The Automated Underreporter
                                AUR Program analysts, the monthly progress of each
Program Manager Effectively
                                W&I Division campus was monitored to ensure ample
Used Data to Monitor Annual
                                progress was being made throughout the year toward
Performance Goals
                                meeting the established Program goals. Our review of the
                                various national- and campus-level management
                                information reports confirmed that the AUR Program was
                                on schedule to meet its FY 2004 goals.
                                The progress of the AUR Program was tracked through a
                                number of internal information reports. For example:
                                •   Maintaining a case quality level of 92 percent
                                    (AUR Paper Quality) was tracked through the
                                    AUR Paper Quality Report.
                                •   Opening 1,608,000 AUR cases (AUR Starts) was
                                    monitored through the AUR Work Scheduling Tool.
                                •   Closing 1,561,000 cases (AUR Case Closures) was
                                    tracked through the AUR Closures by Disposition
                                    Report.
                                •   Assessing $1.5 billion in additional tax revenue
                                    (AUR Assessments) was tracked using the
                                    Enforcement Revenue Information System Report.
                                •   Maintaining an AUR telephone call accuracy level of
                                    92 percent (AUR Telephone Quality) was monitored
                                    through the AUR Phone Quality Report.
                                •   Keeping overage correspondence at a level below
                                    22 percent (AUR Overage Correspondence) was tracked
                                    using the Compliance Inventory Report-Summary.
                                The AUR Program Manager stated that he used the
                                available data to monthly monitor each campus’ progress
                                toward accomplishing the annual performance measures,
                                including those goals listed above. In addition, the AUR
                                Program Manager reported contacting the AUR campus
                                managers to discuss performance progress. If the AUR
                                Program Manager determined that a campus might be in
                                danger of not meeting an annual performance goal, a plan
                                would be developed in consort with the responsible AUR
                                campus manager to get the campus back on track toward
                                meeting the established goal.

                                                                                     Page 3
         The Wage and Investment Division’s Automated Underreporter Program
         Effectively Monitored Performance Data to Meet Annual Program Goals

                                For example, the AUR Program Manager explained that,
                                during his review of the January 2004 performance
                                measures, he identified a potential problem with a campus
                                meeting the annual goal of Full-Time Equivalent (FTE)4
                                use. The AUR Program Manager believed this was caused
                                by the selection of employees for open positions who could
                                not report until after the filing season.5 The scheduling
                                conflict delayed the local campus’ ability to timely process
                                the planned volume of cases. The AUR Program Manager
                                worked with the local AUR campus manager to develop a
                                plan to address the underused FTE resources. As a result of
                                this action, the campus was able to meet its planned goal for
                                established FTE use and meet the case processing
                                requirements. Without this adjustment, the goals for the
                                number of AUR starts, closures, and assessments could have
                                been adversely affected.
                                The OMB PART process stresses that agencies need to
                                “regularly collect timely and credible performance
                                information and use it to manage the program and improve
                                performance.” By effectively gathering performance data
                                and continuing to monitor the Program’s success in
                                achieving its annual goals, AUR Program management can
                                continue to ensure their existing resources are maximizing
                                the AUR Program compliance efforts.
                                W&I Division management held the AUR Program
The Automated Underreporter
                                Manager and the AUR campus managers accountable for
Program Manager and the
                                meeting the AUR Program’s annual goals. Specific
Automated Underreporter
                                AUR Program performance expectations were included in
Campus Managers Were Held
                                the annual performance standards for the AUR Program
Accountable for Program
                                Manager and the AUR campus managers as an addendum to
Performance Results
                                the general performance standards required for all IRS
                                managers. While these expectations did not individually
                                address each specific Program goal, they did set the
                                expectation that the managers would be evaluated on their
                                ability to meet all of the AUR Program’s annual goals.



                                4
                                  A measure of labor hours in which 1 FTE is equal to 8 hours
                                multiplied by the number of compensable days in a particular fiscal
                                year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
                                5
                                  The filing season is the period from January through mid-April when
                                most individual income tax returns are filed.
                                                                                               Page 4
         The Wage and Investment Division’s Automated Underreporter Program
         Effectively Monitored Performance Data to Meet Annual Program Goals

                                The OMB PART process stresses that “the program agency
                                identify the managers who are responsible for achieving key
                                program results and establish performance standards for
                                those managers.” Including specific AUR Program
                                performance expectations in the individual managers’
                                performance standards established a link for the AUR
                                Program between management performance and Program
                                results. It also emphasized the importance of Program
                                accomplishments by forcing management to focus their
                                personal performance toward achieving their Program’s
                                annual goals.
                                To maintain a high level of performance, management in the
Reporting Compliance Function
                                Reporting Compliance function began to perform
Management Has Initiated
                                operational reviews at the W&I Division campuses to help
Operational Reviews to
                                manage and enhance the AUR Program. During FY 2004,
Evaluate Management
                                the Reporting Compliance Director, using review teams
Effectiveness
                                consisting of program managers and senior staff analysts,
                                conducted operational reviews of various compliance
                                programs at the W&I Division campuses. The operational
                                reviews addressed the entire Reporting Compliance
                                function, which included the AUR Program and its progress
                                toward meeting some of its annual performance goals. As
                                part of the operational review, the review teams conducted
                                focus group interviews with AUR Program employees and
                                group managers.
                                As of July 2004, the Reporting Compliance function had
                                completed and reported the results of operational reviews at
                                the Austin, Texas, and Fresno, California, campuses. These
                                reviews determined that both AUR Program campuses had
                                made significant improvement in several performance
                                measures, as compared to the same period in FY 2003. In
                                particular, the campuses had met or exceeded the FY 2003
                                performance levels in areas involving case processing and
                                telephone operation. The operational review teams did note
                                some delays in timely processing of certain types of cases
                                and recommended specific actions intended to improve case
                                processing. While these issues apparently did not affect the
                                campuses’ ability to meet established goals, adhering to the
                                established AUR Program operating procedures would help
                                the Program be more effective in processing the entire
                                AUR Program workload.

                                                                                     Page 5
The Wage and Investment Division’s Automated Underreporter Program
Effectively Monitored Performance Data to Meet Annual Program Goals

                       The OMB PART process stresses that management needs to
                       “develop a system of evaluating program management and
                       correcting deficiencies when they are identified.” By using
                       the information obtained through periodic operational
                       reviews, Reporting Compliance function management can
                       effectively monitor management effectiveness in meeting
                       performance goals and addressing program deficiencies.




                                                                            Page 6
           The Wage and Investment Division’s Automated Underreporter Program
           Effectively Monitored Performance Data to Meet Annual Program Goals

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Wage and Investment (W&I)
Division’s Automated Underreporter (AUR) Program is effectively managed to help ensure it
meets its intended goals, including the evaluation of Program performance through adequate data
collection, evaluation of Program deficiencies, and Program management accountability. To
accomplish this objective, we:
I.      Determined whether the AUR Program was effectively managed to meet its annual
        performance goals.
        A. Interviewed AUR Program management and reviewed various national- and
           campus-level1 management information reports to determine whether management
           used regularly collected timely and credible performance information to manage the
           AUR Program and improve performance. We did not audit the reliability of the data
           contained in the management information reports.
        B. Interviewed AUR Program management and reviewed various national- and
           campus-level management information reports to determine whether the quality
           assurance process for the AUR Program ensured performance measures accurately
           reflected the Program’s performance.
II.     Determined whether the AUR Program Manager and the AUR campus managers were
        held accountable for performance results.
        A. Obtained and reviewed the Fiscal Year (FY) 2004 Internal Revenue Service manager
           performance standards and additional AUR Program expectations for the
           AUR Program Manager and the AUR campus managers involved in processing
           the AUR workload.
        B. Compared the manager performance standards and additional expectations to the
           AUR Program’s FY 2004 performance goals to determine whether the manager
           performance standards and additional expectations were linked to the Program’s
           annual performance goals.
III.    Determined whether Reporting Compliance function management had taken meaningful
        steps to evaluate AUR Program management effectiveness and address management
        deficiencies.
        A. Interviewed Reporting Compliance function management to determine how they
           monitored the AUR Program.

1
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 7
  The Wage and Investment Division’s Automated Underreporter Program
  Effectively Monitored Performance Data to Meet Annual Program Goals

B. Reviewed the W&I Division Business Performance Review Reports for FY 2003 and
   the first two quarters of FY 2004 to determine whether the AUR Program was
   effectively managed and whether any management deficiencies were identified
   during the reviews.
C. Reviewed operational reviews conducted by Reporting Compliance function
   management at the Austin, Texas, and Fresno, California, campuses to evaluate
   Program management effectiveness and identify any management deficiencies in the
   AUR Program.




                                                                             Page 8
         The Wage and Investment Division’s Automated Underreporter Program
         Effectively Monitored Performance Data to Meet Annual Program Goals

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James D. O’Hara, Audit Manager
Gwendolyn Green, Lead Auditor
Sharon Summers, Senior Auditor
Sylvia Sloan-Copeland, Auditor




                                                                                         Page 9
         The Wage and Investment Division’s Automated Underreporter Program
         Effectively Monitored Performance Data to Meet Annual Program Goals

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 10
